                The Lead Development Center Effectively
               Researched Abusive Tax Scheme Leads but
                 Could Be More Proactive in Identifying
                              Promoters


                                     April 2004

                       Reference Number: 2004-30-087




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                          April 16, 2004



       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - The Lead Development Center Effectively
                                      Researched Abusive Tax Scheme Leads but Could Be More
                                      Proactive in Identifying Promoters (Audit # 200330033)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       Lead Development Center (LDC). Our overall objective was to determine whether the
       Small Business/Self-Employed (SB/SE) Division LDC effectively identified, assigned,
       and researched abusive tax scheme leads and monitored any resulting investigations.
       Increases in both noncompliance with Federal tax laws and abusive tax schemes1 are
       concerns to the IRS, the Congress, and the taxpaying public. The increase in abusive
       tax schemes has been one of the most significant tax compliance problems addressed
       in several hearings by the Senate Finance Committee.2 Over the past few years, the
       IRS SB/SE Division has developed some new approaches to deal with the highest risk
       areas of noncompliance, including abusive tax schemes.
       The IRS recognizes that the key to the fight against abusive tax schemes is to better
       identify their promoters.3 The Abusive Tax Avoidance Transactions (ATAT) and
       Promoters area was one of the IRS’ strategic priorities in 2003. To better address these
       promoters, the SB/SE Division established a LDC in its Compliance function in April

       1
         This term generally includes a partnership, trust, investment plan, or any other entity or arrangement which is sold
       to a third party and is designed to be used or is actually used by that third party in obtaining tax benefits not allowed
       by law.
       2
         United States Senate Committee on Finance hearings: April 1, 2003; October 21, 2003; and December 19, 2003.
       3
         A promoter is a person who organizes or assists in the organization of a partnership, trust, investment plan, or any
       other entity or arrangement that is to be sold to a third party and is designed to be used or is actually used by that
       third party in obtaining tax benefits not allowed by the Internal Revenue Code.
                                                          2

20024 to centralize the receipt and development of all potential leads on ATATs used by
promoters/preparers. The LDC also authorizes and monitors on a national level
abusive tax promoter investigations (also called Internal Revenue Code [I.R.C.] § 67005
investigations) assigned to the Compliance field offices.
In summary, the LDC has sufficient procedures in place to control and monitor the
promoter investigations from start to finish. Our reviews of 58 leads showed these
procedures were effectively used. The LDC is making the proper determinations to
accept or reject leads involving I.R.C. § 6700 investigations. The LDC also has
procedures in place to refer the clients of these promoters for further action by the IRS.
The LDC effectively coordinates with the Criminal Investigation function and obtains
concurrence from IRS Office of Chief Counsel on the recommendations for I.R.C.
§ 6700 investigations. In addition, the SB/SE Division’s Taxpayer Education and
Communication function informs the public about the IRS’ abusive tax schemes
programs and how to report those types of activities.
The initial results from the LDC program are positive. As of September 30, 2003, there
had been 666 leads recommended for I.R.C. § 6700 investigations. As of
November 24, 2003, legal action had been initiated on 17 promoters identified from the
leads:
    •    Four promoters had permanent injunctions granted by the Federal court.
    •    Five promoters had preliminary injunctions granted by the Federal court.
    •    Eight promoters had injunctions requested by the Department of Justice (DOJ)
         that are pending Federal court approval.
An additional 29 cases were pending in the DOJ, and the remaining leads were still
being worked in the Compliance field offices at the time of our review. The injunctions
order the promoters to stop organizing, promoting, marketing, or selling any abusive tax
schemes.
One of the main reasons the LDC was created is to systemically monitor the Internet to
identify leads and detect sites, promoters, and promotional materials that market
abusive tax schemes over the Internet. Our review showed the LDC is not performing
Internet research, independent of referred leads, to identify promoters. LDC
management decided not to take this step earlier so the LDC could quickly address
existing and incoming leads and the behavior of the known promoters. However,
proactively monitoring the Internet will help the LDC meet its goal to identify abusive tax


4
  There is also an LDC within the Criminal Investigation (CI) function whose current role is predominantly to
research investigative leads provided by the CI function field offices and fraud referrals that come from the
Compliance functions. This audit report refers only to the LDC in the SB/SE Division.
5
  I.R.C. § 6700 (1994) imposes a penalty on any person who promotes (organizes, assists in the organization of, or
participates in) abusive tax shelters, etc. Therefore, these promoter investigations are called “I.R.C. § 6700
investigations.” The penalty rate is the lesser of $1,000 per activity or 100 percent of the gross income from each
activity.
                                             3

schemes earlier. If the Internet is not routinely monitored, the LDC may not be timely
identifying and detecting sites of a significant number of promoters of abusive tax
schemes.
We recommended the Director, Compliance, SB/SE Division, ensure the LDC becomes
more proactive in researching the Internet to independently identify promoters of
abusive tax schemes.
Management’s Response: The Commissioner, SB/SE Division, agreed with our
recommendation. The SB/SE Division LDC Program Manager will continue to work with
the SB/SE Division Strategy, Research, and Performance Management function to
complete the current research study involving evaluation of LDC needs, identification of
software, testing of software, and review of software suitability. Also, the SB/SE
Division LDC Program Manager will implement a process within the LDC to research
the Internet and independently identify promoters of abusive tax schemes.
Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to IRS officials who are affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
    The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
                 but Could Be More Proactive in Identifying Promoters




                                                  Table of Contents


Background ............................................................................................... Page 1
The Lead Development Center Effectively Developed,
Assigned, and Monitored Abusive Tax Scheme Leads ............................. Page 3
The Lead Development Center Could Be More Proactive in
Identifying Abusive Tax Scheme Promoter Leads ..................................... Page 6
         Recommendation 1: ....................................................................... Page 8

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 9
Appendix II – Major Contributors to This Report........................................ Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Management’s Response to the Draft Report .................... Page 13
    The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
                 but Could Be More Proactive in Identifying Promoters

                                Increases in both noncompliance with Federal tax laws and
Background
                                abusive tax schemes1 are concerns to the Internal Revenue
                                Service (IRS), the Congress, and the taxpaying public. The
                                increase in abusive tax schemes has been one of the most
                                significant tax compliance problems addressed by the
                                Senate Finance Committee2 since it was raised as a problem
                                2 years ago. The Senate Finance Committee has had
                                hearings on the subject, recently stated the Congress cannot
                                ignore the problem any longer, and pushed for legislation to
                                stop these schemes.
                                The Department of the Treasury has asked the Congress to
                                assist by passing legislation to strengthen certain provisions
                                of the Internal Revenue Code (I.R.C.) to allow the IRS to be
                                more effective in curtailing abusive transactions. The
                                Senate Finance Committee committed to providing the IRS
                                the legislative tools it needs to fight the problem.
                                Over the past few years, the IRS Small Business/
                                Self-Employed (SB/SE) Division has developed some new
                                approaches to deal with the highest risk areas of
                                noncompliance, including identifying and combating
                                abusive tax schemes. The IRS recognizes that the key to the
                                fight against abusive tax schemes is to better identify their
                                promoters.3 The Abusive Tax Avoidance Transactions
                                (ATAT) and Promoters area was one of the IRS’ strategic
                                priorities in 2003. To better address these promoters, the
                                SB/SE Division established the Compliance function Lead
                                Development Center (LDC) in April 2002.4 Its purpose is to

                                1
                                  This term generally includes a partnership, trust, investment plan, or
                                any other entity or arrangement which is sold to a third party and is
                                designed to be used or is actually used by that third party in obtaining
                                tax benefits not allowed by law.
                                2
                                  United States Senate Committee on Finance hearings: April 1, 2003;
                                October 21, 2003; and December 19, 2003.
                                3
                                  A promoter is a person who organizes or assists in the organization of
                                a partnership, trust, investment plan, or any other entity or arrangement
                                that is to be sold to a third party and is designed to be used or is actually
                                used by that third party in obtaining tax benefits not allowed by the
                                I.R.C.
                                4
                                  There is also an LDC within the Criminal Investigation (CI) function
                                whose current role is predominantly to research investigative leads
                                provided by the CI function field offices and fraud referrals that come
                                from the Compliance functions. This audit report refers only to the
                                LDC in the SB/SE Division.
                                                                                                     Page 1
The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
             but Could Be More Proactive in Identifying Promoters

                            centralize the receipt and development of all potential leads
                            on ATATs used by promoters/preparers. The LDC also
                            authorizes and monitors on a national level abusive tax
                            promoter investigations (also called I.R.C. § 67005
                            investigations) assigned to the Compliance field offices.
                            The LDC receives leads about promoters of abusive tax
                            schemes from various internal and external sources, and
                            then inputs the information into a database. Sources can be
                            from field agents, revenue officers, tax professionals,
                            investors, and the public. An LDC employee conducts basic
                            research to screen and classify the lead. Based upon certain
                            criteria, the employee determines whether information is
                            sufficient to assign the lead for further development by an
                            LDC agent. If there is not enough information, the lead is
                            rejected and filed in the LDC archives.
                            Once a lead is assigned, an LDC agent develops the lead by
                            conducting more in-depth research using a variety of
                            research systems to identify the nature of the scheme and
                            potential harm to the Federal Government. The agent
                            researches the Internet looking for the promoter’s web site
                            and performs additional research using the IRS computer
                            systems. If an I.R.C. § 6700 investigation is recommended,
                            the LDC obtains concurrence from the IRS Office of Chief
                            Counsel and coordinates authorization of the civil
                            investigation with the Criminal Investigation (CI) function.
                            The LDC then forwards the lead to an SB/SE Division
                            Compliance field office where an examiner contacts the
                            promoter and completes the investigation.
                            This review was performed at the SB/SE Division
                            Compliance Policy, Reporting Enforcement Office, in
                            Laguna Niguel, California, during the period August
                            through December 2003. The audit was conducted in
                            accordance with Government Auditing Standards. Data
                            used in this report came from the LDC database. We did
                            not conduct tests to validate the data.

                            5
                             I.R.C. § 6700 (1994) imposes a penalty on any person who promotes
                            (organizes, assists in the organization of, or participates in) abusive tax
                            shelters, etc. Therefore, these promoter investigations are called
                            “I.R.C. § 6700 investigations.” The penalty rate is the lesser of
                            $1,000 per activity or 100 percent of the gross income from each
                            activity.
                                                                                                Page 2
    The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
                 but Could Be More Proactive in Identifying Promoters

                                   Detailed information on our audit objective, scope, and
                                   methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   The LDC has sufficient procedures in place to control and
The Lead Development Center
                                   monitor promoter investigations from start to finish. Our
Effectively Developed, Assigned,
                                   review showed the procedures were effectively used and the
and Monitored Abusive Tax
                                   LDC made proper determinations on whether to recommend
Scheme Leads
                                   the I.R.C. § 6700 investigation. In addition, the initial
                                   program results are successful.
                                   The LDC’s procedures are effective
                                   The LDC program manager designed effective procedures
                                   for processing, classifying, developing, and case building all
                                   leads received. Our reviews of 58 leads
                                   (28 unassigned/archived and 30 assigned leads) showed
                                   these procedures were effectively used.
                                   An LDC employee screens the leads and conducts basic
                                   research to identify the source, description, issue, and
                                   classification of the lead. Once cases are assigned to LDC
                                   agents, the agents record their actions, results obtained, and
                                   contacts on a case history sheet and use a case-processing
                                   checklist to record the dates of actions taken.
                                   Desk guides provide adequate instructions on how to
                                   1) develop and build the leads including the research tools,
                                   2) issue recommendation memoranda to accept or reject the
                                   leads, and 3) conduct manager reviews and obtain approval
                                   memoranda. In addition, the manager uses various
                                   biweekly and monthly reports, such as inventory levels and
                                   case movement, workload by SB/SE Division Area Office,
                                   and LDC work in process.
                                   An LDC database is used to enter and control leads as they
                                   are received and is updated on a continuous basis. The
                                   database tracks the dates of actions taken throughout the
                                   process of the investigation and is used to record various
                                   data such as the source of the lead and the disposition
                                   reason. Also, the database captures the information about a
                                   lead once it is sent to an SB/SE Division Compliance field
                                   office for investigation. The LDC program manager
                                   continues to monitor the status of the lead and follows up if
                                   needed.

                                                                                           Page 3
The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
             but Could Be More Proactive in Identifying Promoters

                            LDC employees effectively coordinate with the CI function
                            and obtain concurrence from IRS Office of Chief Counsel
                            on the recommendations for I.R.C. § 6700 investigations.
                            After an LDC agent determines that an I.R.C. § 6700
                            investigation should be pursued, the agent contacts the CI
                            function and IRS Office of Chief Counsel to determine
                            whether a particular promotion is already under scrutiny and
                            whether a CI function criminal investigation would be
                            hindered by a parallel civil SB/SE Division examination.
                            Decisions are made on a case-by-case basis after mutual
                            agreement is obtained from both divisions.
                            The LDC also works with the SB/SE Division Taxpayer
                            Education and Communication (TEC) function. The TEC
                            function informs the public about abusive tax schemes and
                            how to report their promoters and activities. To reach a
                            maximum number of taxpayers, the IRS recognizes the
                            importance of partnering with external stakeholders, such as
                            the practitioner community. Therefore, the TEC function
                            developed a series of toolkits to assist external stakeholders
                            in educating the public about abusive tax avoidance
                            schemes and how to report scheme promoters and/or any
                            new schemes identified to the IRS Abusive Schemes LDC.
                            The TEC function has issued several news releases alerting
                            the public that abusive promotions are being marketed and
                            that those who become involved run the risk of being
                            identified and criminally prosecuted. In addition, the IRS
                            web site provides a hotline number through which to report
                            suspected tax fraud activity. Information obtained from this
                            hotline number related to promoters is forwarded to the
                            LDC.
                            The LDC is making the proper determinations to accept
                            or reject leads for I.R.C. § 6700 investigations
                            Before a lead is assigned to an LDC agent, an LDC
                            employee checks the lead against the database to ensure it is
                            new information, acknowledges the receipt of the lead, and
                            requests any additional data necessary from the originator of
                            the lead to verify the name of the promoter. Then, another
                            employee does basic research to screen the lead, classify it,
                            and prioritize it according to criteria set by the LDC. The
                            criteria include whether potential harm to the Federal
                            Government exists, the scheme is abusive in nature, and

                                                                                   Page 4
The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
             but Could Be More Proactive in Identifying Promoters

                            there is money exchanged for the services. During this
                            process, any leads with insufficient information to proceed
                            are rejected and filed in the LDC archives, thereby reducing
                            the time spent on unproductive leads.
                            Our review of 28 unassigned/archived leads showed enough
                            information was obtained through preliminary and basic
                            research to support the determination to reject the lead or
                            accept it for further development. In addition, the leads
                            were properly and consistently classified and prioritized
                            before they were assigned for development.
                            After a lead is assigned to an LDC agent for further
                            development, the agent develops the lead by conducting
                            Internet research using several public search engines6 to
                            determine whether the promoter has a presence on the
                            Internet. The agent also uses other internal research
                            methods such as the Integrated Data Retrieval System
                            (IDRS)7 and ChoicePoint® Public Records.8 The evidence
                            obtained from this research is used to support whether an
                            I.R.C. § 6700 investigation should be recommended.
                            Our review of 30 assigned leads closed by LDC agents
                            showed the LDC agent recommended an I.R.C. § 6700
                            investigation for 20 of the leads. In all 20 leads, the agent
                            obtained enough information to properly develop the
                            6 factors to support the recommendations for assigning
                            cases for investigation: the type of scheme being promoted,
                            past activity of the promoter, size of the promotion, tax law
                            impact, possible tax violation, and favorable public impact
                            and/or compliance impact. The LDC agent made the proper
                            determination not to recommend an I.R.C. § 6700
                            investigation on the other 10 of 30 assigned leads because
                            involvement in abusive promotion and possible harm to the
                            Federal Government were not indicated.




                            6
                              Search engines are computer databases available on the Internet for
                            searching nationwide information.
                            7
                              The IDRS is the IRS computer system capable of retrieving or
                            updating stored information; it works in conjunction with a taxpayer’s
                            account records.
                            8
                              ChoicePoint® Public Records is a public sector database containing a
                            wide range of public record information.
                                                                                           Page 5
      The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
                   but Could Be More Proactive in Identifying Promoters

                                  Program results are successful
                                  The initial results from the LDC program are very positive.
                                  The success of the program can be seen by the resolution of
                                  the investigations of the leads sent to the SB/SE Division
                                  Compliance field offices. Between April 1, 2002 (when the
                                  LDC started) and September 30, 2003, the LDC had
                                  recommended 666 leads for I.R.C. § 6700 investigations.
                                  As of November 24, 2003, legal action had been initiated on
                                  17 promoters identified from the leads:
                                      •   Four promoters had permanent injunctions granted
                                          by the Federal court.
                                      •   Five promoters had preliminary injunctions granted
                                          by the Federal court.
                                      •   Eight promoters had injunctions requested by the
                                          Department of Justice (DOJ) that are pending
                                          Federal court approval.
                                  An additional 29 cases were pending in the DOJ, and the
                                  remaining leads were still being worked in the SB/SE
                                  Division Compliance field offices at the time of our review.
                                  The injunctions order the promoters to stop organizing,
                                  promoting, marketing, or selling any abusive tax schemes.
                                  It is critical to the success of any promoter investigation to
                                  address the noncompliance by the participants of the
                                  promotion. Therefore, it is fundamental to secure the
                                  participant list as early into the investigation of the promoter
                                  as possible. Our review indicated the SB/SE Division
                                  Compliance function has procedures to refer the clients of
                                  these promoters to the Ogden Campus9 Fraud Referral
                                  Program section for further action.
                                  One of the main reasons the LDC was created is to
The Lead Development Center
                                  systemically monitor the Internet to identify leads and detect
Could Be More Proactive in
                                  sites, promoters, and promotional materials that market
Identifying Abusive Tax Scheme
                                  abusive tax schemes over the Internet. Our review showed
Promoter Leads
                                  the LDC was not performing Internet research, independent


                                  9
                                   A campus is the data processing arm of the IRS. The campuses
                                  process paper and electronic submissions, correct errors, and forward
                                  data to the computing centers for analysis and posting to taxpayer
                                  accounts.
                                                                                                  Page 6
The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
             but Could Be More Proactive in Identifying Promoters

                            of referred leads, to identify promoters. Currently, the
                            majority of the leads worked are identified from sources
                            within the IRS.
                            IRS employees from other functions submit leads directly to
                            the LDC, and sources outside of the IRS such as tax return
                            representatives submit their leads through the TEC function.
                            Our review showed most of the 2,154 leads received in the
                            LDC were from sources within the IRS. For example:
                                 •   From revenue agents – 40 percent.
                                 •   From other programs – 21 percent.
                                 •   From the Offshore Compliance Program –
                                     13 percent.
                                 •   From an issue specialist – 5 percent.
                                 •   From outside sources – 3 percent.
                                 •   Could not be determined – 10 percent.
                            The remaining 8 percent were leads the LDC identified, but
                            these were related to an existing lead and were found while
                            conducting Internet research on that existing lead. LDC
                            employees did not identify any leads by just monitoring the
                            Internet for abusive tax scheme promoters.
                            The primary reason for not proactively monitoring the
                            Internet is that leads received from other sources provided
                            sufficient work for the LDC staff. LDC management
                            decided not to monitor the Internet earlier so that the LDC
                            could quickly address existing and incoming leads and the
                            behavior of known promoters. In addition, the LDC
                            personnel use “stand-alone” 10 computers to query the
                            Internet, but they do not have specialized search software
                            which would make such reviews more productive.
                            The SB/SE Division Strategy, Research, and Performance
                            Management function recently completed a study, Using the
                            Internet to Find Promoters of Abusive Tax Schemes,11
                            showing that unknown promoters could be identified


                            10
                               Stand-alone computers function independently from the IRS-based
                            systems.
                            11
                               Ft. Lauderdale/Greensboro Fiscal Year 2003 Research Project
                            04.09.002.03; June 2, 2003.
                                                                                          Page 7
The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
             but Could Be More Proactive in Identifying Promoters

                            through Internet searches but that these searches do take a
                            large amount of time. The report also suggested the LDC
                            evaluate specific software to determine how successful it is
                            in identifying promoters of abusive tax schemes. LDC
                            management had commissioned this study to gather
                            information about systemically monitoring the Internet.
                            Proactively monitoring the Internet could help the LDC
                            meet its goal to identify abusive tax schemes earlier. If the
                            Internet is not routinely monitored, the LDC may not be
                            timely identifying and detecting sites of a significant
                            number of promoters of abusive tax schemes.

                            Recommendation

                            1. The Director, Compliance, SB/SE Division, should
                               ensure the LDC becomes more proactive in researching
                               the Internet to independently identify promoters of
                               abusive tax schemes. To make this process more
                               effective and efficient, the Director should evaluate the
                               need for specialized software that may make the process
                               of searching the Internet more effective.
                            Management’s response: The SB/SE Division LDC
                            Program Manager will continue to work with the SB/SE
                            Division Strategy, Research, and Performance Management
                            function to complete the current Research study. The study
                            involves evaluation of LDC needs, identification of
                            software, testing of software, and review of software
                            suitability. The SB/SE Division LDC Program Manager
                            will implement a process within the LDC to research the
                            Internet and independently identify promoters of abusive tax
                            schemes, using the appropriate software, if available, and
                            then review and revise the process as necessary.




                                                                                    Page 8
     The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
                  but Could Be More Proactive in Identifying Promoters

                                                                                    Appendix I


                       Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Small Business/Self-Employed (SB/SE)
Division Lead Development Center (LDC) effectively identified, assigned, and researched
abusive tax scheme leads and monitored any resulting investigations. To accomplish this
objective, we:
I.     Determined whether the LDC made the proper determination to accept or reject leads.
       A. Identified the program’s procedures and guidelines to accept and reject leads for
          investigation.
       B. Determined how effectively and consistently the LDC screened the leads before an
          LDC agent further developed them.
           1.   Analyzed the LDC’s inventory to identify the sources for the leads and the
                number of leads that were archived, and determined how long leads remained in
                unassigned inventory before being assigned to an LDC agent.
           2.   Determined whether proper determinations were made to archive or proceed with
                the investigations during the screening process.
                a. From the population of 262 unassigned and archived leads as of
                   September 30, 2003, we selected a judgmental sample of 28 (14 archived and
                   14 unassigned) leads. We used a judgmental sample because we could not
                   independently identify the population of leads received in the LDC or validate
                   the data we obtained.
                b. Determined whether sufficient information was obtained through preliminary
                   research.
                c. Determined whether leads were properly and consistently classified and
                   prioritized.
       C. Determined whether the LDC properly researched and appropriately closed the leads
          by either accepting or rejecting them for referral to the field.




                                                                                          Page 9
       The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
                    but Could Be More Proactive in Identifying Promoters

             1.   Determined whether any “best practices” were established to ensure consistency
                  in the determination of the Internal Revenue Code (I.R.C.) § 67001 investigation.
             2.   From the population of 904 leads closed as of September 30, 2003, we selected a
                  judgmental sample of 30 closed leads including Approved and Not Approved
                  leads for the I.R.C. § 6700 investigation with a variety of sources and disposal
                  reasons. We used a judgmental sample because we could not independently
                  identify the population of leads received in the LDC or validate the data we
                  obtained.
             3.   Reviewed the histories of selected cases for actions taken on the leads. Issues
                  reviewed included the following: were internal and external research tools used,
                  was sufficient evidence used to make the decision to accept or reject the lead, was
                  it properly reviewed and approved by the program manager, was it timely worked
                  and closed, and were the Criminal Investigation (CI) function and the IRS Office
                  of Chief Counsel involved.
II.      Determined whether the LDC’s procedures effectively monitored the progress and results
         of the promoter investigations.
         A. Identified procedures to control and monitor the investigations from start to finish,
            including once they were assigned to the SB/SE Division Compliance field offices.
         B. Evaluated the inventory from the LDC database and determined whether the LDC had
            controls to identify the timeliness of leads worked, the resolution of the leads, the
            SB/SE Division Compliance field offices to which the leads were referred, and the
            current status of the leads.
III.     Determined how the SB/SE Division is addressing the clients of these promoters.
IV.      Determined the effectiveness of the coordination among the LDC, IRS Office of Chief
         Counsel, CI function, and SB/SE Division field offices for the promoter investigations by
         reviewing procedures and guidelines. We considered issues such as parallel investigations
         or conflicts with the CI function, concurrence with the IRS Office of Chief Counsel, and
         the Taxpayer Education and Communication function’s outreach programs.




1
  I.R.C. § 6700 (1994) imposes a penalty on any person who promotes (organizes, assists in the organization of, or
participates in) abusive tax shelters, etc. Therefore, these promoter investigations are called “I.R.C. § 6700
investigations.” The penalty rate is the lesser of $1,000 per activity or 100 percent of the gross income from each
activity.




                                                                                                            Page 10
   The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
                but Could Be More Proactive in Identifying Promoters

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Philip Shropshire, Director
Lynn Wofchuck, Audit Manager
Doris Cervantes, Senior Auditor
Joseph Cooney, Senior Auditor
Julian O’Neal, Senior Auditor
Cristina Johnson, Auditor




                                                                                       Page 11
   The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
                but Could Be More Proactive in Identifying Promoters

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
       Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 12
The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
             but Could Be More Proactive in Identifying Promoters

                                                                  Appendix IV


               Management’s Response to the Draft Report




                                                                        Page 13
The Lead Development Center Effectively Researched Abusive Tax Scheme Leads
             but Could Be More Proactive in Identifying Promoters




                                                                        Page 14
